—
I

C@OCKLE

* E-Mail Address:
Le ga 1B a cfs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-1203

CHILDREN’S HOSPITAL ASSOCIATION
OF TEXAS, et al.,
Petitioners,
v.
ALEX M. AZAR I, SECRETARY OF
HEALTH AND HUMAN SERVICES, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE SOUTHEASTERN LEGAL FOUNDATION IN SUPPORT OF PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this

brief contains 3656 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),
as needed.

Subscribed and sworn to before me this 6th day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

 

Timhent SIFT,
Affiant

GENERAL MOTARY-State of Mabraska L 1 . if 2, 44
A vapcorteMEE OOS, Lente. ton Oude A, Gebel,
jotary Public
